                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS



                                   Final Audit Report

Subject:




               AUDIT OF INFORMATION SYSTEMS
            GENERAL AND APPLICATION CONTROLS AT
                      EMBLEMHEALTH


                                            Report No. 1D-80-00-12-045

                                            Date:                 December 10, 2012




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report



              FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                         CONTRACTS 1056 & 2655
                                                   EMBLEMHEALTH
                           PLAN CODES 6V1 / 6V2 / X41 / X42 / 801 / 802
                                          804 / 805 / 511 / 512 / 514 / 515
                                            NEW YORK, NEW YORK



                                             Report No. 1D-80-00-12-045

                                            Date:               December 10, 2012




                                                                                             ________________________
                                                                                             Michael R. Esser
                                                                                             Assistant Inspector General
                                                                                               for Audits


                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                   Executive Summary



          FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                     CONTRACTS 1056 & 2655
                                     EMBLEMHEALTH
                   PLAN CODES 6V1 / 6V2 / X41 / X42 / 801 / 802
                              804 / 805 / 511 / 512 / 514 / 515
                                NEW YORK, NEW YORK




                               Report No. 1D-80-00-12-045

                               Date:          December 10, 2012



This final report discusses the results of our audit of general and application controls over the
information systems at EmblemHealth. EmblemHealth has separate plans that service federal
employees: GHI Health Plan, GHI HMO Select Plans, and HIP Health of Greater New York.

Our audit focused on the claims processing applications used to adjudicate Federal Employees
Health Benefits Program (FEHBP) claims for EmblemHealth, as well as the various processes
and information technology (IT) systems used to support these applications. We documented
controls in place and opportunities for improvement in each of the areas below.

Security Management
EmblemHealth has established a series of IT policies and procedures to create an awareness of
IT security at the Plan. We also verified that EmblemHealth has adequate human resources
policies related to the security aspects of hiring, training, transferring, and terminating
employees.




                                                 i
Access Controls
EmblemHealth has implemented numerous controls to grant and remove physical access to its
data center, as well as logical controls to protect sensitive information. However, we did note
opportunities for improvement related to EmblemHealth’s authentication controls over physical
access to the data centers as well as the method for encrypting emails containing PII.
EmblemHealth has since remediated all of these weaknesses.

Configuration Management
EmblemHealth has developed formal policies and procedures that provide guidance to ensure
that system software is appropriately configured and updated, as well as for controlling system
software configuration changes. However, we noted several weaknesses in EmblemHealth’s
configuration management program related to mainframe, server, and database system
configurations. EmblemHealth has since remediated several of these weaknesses and is working
to implement the necessary changes for the remaining vulnerabilities.

Contingency Planning
We reviewed EmblemHealth’s business continuity plans and concluded that they contained most
of the key elements suggested by relevant guidance and publications. We also determined that
these documents are reviewed and updated on a periodic basis.

Claims Adjudication
EmblemHealth has implemented many controls in its claims adjudication process to ensure that
FEHBP claims are processed accurately. However, we recommended that EmblemHealth
implement a tool to facilitate automation of its application configuration change process.

Health Insurance Portability and Accountability Act (HIPAA)
Nothing came to our attention that caused us to believe that EmblemHealth is not in compliance
with the HIPAA security, privacy, and national provider identifier regulations.




                                               ii
                                                                   Contents
                                                                                                                                                 Page
Executive Summary ............................................................................................................................ i
 I. Introduction ................................................................................................................................... 1
    Background ................................................................................................................................... 1
    Objectives ...................................................................................................................................... 1
    Scope ............................................................................................................................................. 2
    Methodology ................................................................................................................................. 2
    Compliance with Laws and Regulations ....................................................................................... 3
II. Audit Findings and Recommendations ......................................................................................... 4
    A. Security Management ............................................................................................................... 4
    B. Access Controls ........................................................................................................................ 4
    C. Configuration Management ...................................................................................................... 6
    D. Contingency Planning ............................................................................................................. 10
    E. Claims Adjudication ............................................................................................................... 10
    F. Health Insurance Portability and Accountability Act ............................................................. 13
III. Major Contributors to This Report ............................................................................................ 14

  Appendix: EmblemHealth’s September 14, 2012 response and subsequent October 12, 2012
            amendment, to the draft audit report issued July 12, 2012.
                                       I. Introduction
This final report details the findings, conclusions, and recommendations resulting from the audit
of general and application controls over the information systems responsible for processing
Federal Employees Health Benefits Program (FEHBP) claims at EmblemHealth.

The audit was conducted pursuant to FEHBP contracts CS 1056 and CS 2655; 5 U.S.C. Chapter
89; and 5 Code of Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by
the U.S. Office of Personnel Management’s (OPM) Office of the Inspector General (OIG), as
established by the Inspector General Act of 1978, as amended.

Background
The FEHBP was established by the Federal Employees Health Benefits Act (the Act), enacted on
September 28, 1959. The FEHBP was created to provide health insurance benefits for federal
employees, annuitants, and qualified dependents. The provisions of the Act are implemented by
OPM through regulations codified in Title 5, Chapter 1, Part 890 of the CFR. Health insurance
coverage is made available through contracts with various carriers that provide service benefits,
indemnity benefits, or comprehensive medical services.

This was our first audit of EmblemHealth’s general and application controls. We also reviewed
EmblemHealth’s compliance with the Health Insurance Portability and Accountability Act
(HIPAA).

All EmblemHealth personnel that worked with the auditors were helpful and open to ideas and
suggestions. They viewed the audit as an opportunity to examine practices and to make changes
or improvements as necessary. Their positive attitude and helpfulness throughout the audit was
greatly appreciated.

Objectives
The objectives of this audit were to evaluate controls over the confidentiality, integrity, and
availability of FEHBP data processed and maintained in EmblemHealth’s IT environment.
We accomplished these objectives by reviewing the following areas:
•   Security management;
•   Access controls;
•   Configuration management;
•   Segregation of duties;
•   Contingency planning;
•   Application controls specific to EmblemHealth’s claims processing systems; and,
•   HIPAA compliance.




                                                  1
Scope
This performance audit was conducted in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States. Accordingly, we
obtained an understanding of EmblemHealth’s internal controls through interviews and
observations, as well as inspection of various documents, including information technology and
other related organizational policies and procedures. This understanding of EmblemHealth’s
internal controls was used in planning the audit by determining the extent of compliance testing
and other auditing procedures necessary to verify that the internal controls were properly
designed, placed in operation, and effective.

EmblemHealth has separate plans that service federal employees: two Health Maintenance
Organization plans referred to as GHI-HMO and HIP-HMO; and a fee-for-service plan, GHI.

The scope of this audit centered on the information systems used by EmblemHealth to process
medical insurance claims for FEHBP members, with a primary focus on their claims adjudication
applications. Three separate systems are used to process claims at EmblemHealth: one for GHI
professional claims, one for GHI facility claims, and a third for both GHI-HMO and HIP-HMO
claims. The business processes reviewed are primarily located in EmblemHealth’s New York,
New York facilities.

The on-site portion of this audit was performed in April and May of 2012. We completed
additional audit work before and after the on-site visit at our office in Washington, D.C. The
findings, recommendations, and conclusions outlined in this report are based on the status of
information system general and application controls in place at EmblemHealth as of May 2012.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
EmblemHealth. Due to time constraints, we did not verify the reliability of the data used to
complete some of our audit steps but we determined that it was adequate to achieve our audit
objectives. However, when our objective was to assess computer-generated data, we completed
audit steps necessary to obtain evidence that the data was valid and reliable.

Methodology
In conducting this review we:
•   Gathered documentation and conducted interviews;
•   Reviewed EmblemHealth’s business structure and environment;
•   Performed a risk assessment of EmblemHealth’s information systems environment and
    applications, and prepared an audit program based on the assessment and the Government
    Accountability Office’s (GAO) Federal Information System Controls Audit Manual
    (FISCAM); and,
•   Conducted various compliance tests to determine the extent to which established controls and
    procedures are functioning as intended. As appropriate, we used judgmental sampling in
    completing our compliance testing. Results of samples that are judgmentally or randomly
    selected cannot be projected to the population since it is unlikely that the results are
    representative of the population as a whole.

                                                2
Various laws, regulations, and industry standards were used as a guide to evaluating
EmblemHealth’s control structure. These criteria include, but are not limited to, the following
publications:
•   Title 48 of the Code of Federal Regulations;
•   Office of Management and Budget (OMB) Circular A-130, Appendix III;
•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   Information Technology Governance Institute’s CobiT: Control Objectives for Information
    and Related Technology;
•   GAO’s FISCAM;
•   National Institute of Standards and Technology’s Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
•   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-41, Guidelines on Firewalls and Firewall Policy;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems and Organizations;
•   NIST SP 800-61, Computer Security Incident Handling Guide;
•   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPAA
    Security Rule; and,
•   HIPAA Act of 1996.

Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether EmblemHealth’s practices
were consistent with applicable standards. While generally compliant, with respect to the items
tested, EmblemHealth was not in complete compliance with all standards as described in the
“Audit Findings and Recommendations” section of this report.




                                                3
                      II. Audit Findings and Recommendations

A. Security Management
  The security management component of this audit involved the examination of the policies and
  procedures that are the foundation of EmblemHealth’s overall IT security controls. We
  evaluated EmblemHealth’s ability to develop security policies, manage risk, assign security-
  related responsibility, and monitor the effectiveness of various system-related controls.

  EmblemHealth has implemented a series of formal policies and procedures that comprise its
  security management program. EmblemHealth’s Information Security group is responsible for
  creating, reviewing, editing, and disseminating IT security policies. EmblemHealth has also
  developed a thorough risk management methodology, and has procedures to document, track,
  and mitigate or accept identified risks. We also reviewed EmblemHealth’s human resources
  policies and procedures related to hiring, training, transferring, and terminating employees.

  Nothing came to our attention to indicate that EmblemHealth does not have an adequate security
  management program.

B. Access Controls
  Access controls are the policies, procedures, and techniques used to prevent or detect
  unauthorized physical or logical access to sensitive resources.

  We examined the physical access controls at EmblemHealth’s New York headquarters buildings
  and its data center. We also examined the logical controls protecting sensitive data on
  EmblemHealth’s network environment and claims processing applications. Furthermore, we
  conducted an automated network topology scan to verify that all known assets were included
  within EmblemHealth’s computer hardware inventory.

  The access controls observed during this audit include, but are not limited to:
  •   Procedures for appropriately granting physical access to facilities and data centers;
  •   Procedures for revoking access to data centers for terminated employees;
  •   Procedures for removing Windows/network access for terminated employees; and,
  •   Controls to monitor and filter email and Internet activity.

  However, the following sections document several opportunities for improvement related to
  EmblemHealth’s physical access and network environment controls.

  1. Access to Data Center
      EmblemHealth’s primary data centers use stand-alone electronic card readers to control
      physical access. However, we expect all FEHBP contractors to also have multi-factor
      authentication (e.g., cipher lock or biometric device in addition to an access card) at all data
      center entrances. In addition to this minimum requirement, the following list outlines
      physical access controls that are common at other FEHBP carrier facilities:

                                                    4
   •   Piggybacking alarms to enter the computer room (alarm that sounds if more than one
       person walks past a sensor for each access card that is swiped); and,
   •   “Man-trap” entrances (small space with two locking doors where the first door must close
       before the second opens).

   Failure to implement adequate physical access controls increases the risk that unauthorized
   individuals can gain access to EmblemHealth’s data centers and the sensitive IT resources
   and confidential data they contain. NIST SP 800-53 provides guidance for adequately
   controlling physical access to information systems containing sensitive data.

   Recommendation 1
   We recommend that EmblemHealth reassess its data centers’ physical access management
   and implement controls that will improve physical security. At a minimum, EmblemHealth
   should implement multi-factor authentication (e.g., cipher lock or biometric device in
   addition to an access card) at data center entrances.

   EmblemHealth Response:
   “Dual input card readers, that require both an access card and a PIN, were installed for
   each entrance to the data center on September 12, 2012.”

   OIG Reply:
   The evidence provided by EmblemHealth in response to the draft audit report indicates that
   the Plan has implemented multi-factor authentication at data center entrances; no further
   action is required.

2. Email Encryption
   We conducted a test of EmblemHealth’s e-mail encryption program by asking an
   EmblemHealth employee to send us sample e-mails containing personally identifiable
   information (PII). We expected the encryption program to detect the PII and automatically
   encrypt the emails. However, the application did not encrypt any of the e-mails.

   OMB Memorandum M-07-16 recommends “using encryption, strong authentication
   procedures, and other security controls to make [PII] . . . unusable by unauthorized
   individuals.”

   Failure to implement adequate e-mail encryption controls increases the risk that unauthorized
   individuals can access PII.

   Recommendation 2
   We recommend that EmblemHealth review its configuration settings for e-mail encryption to
   ensure that all PII is appropriately protected.




                                               5
      EmblemHealth Response:
      “We have implemented the SSN lexicon for ZixSelect, the tool that we use to automatically
      encrypt e-mail containing PHI. A single SSN will force the encryption. We acknowledge
      the importance of the SSN as a key element of the e-mail and that it is PII vs. PHI . . . .”

      OIG Reply:
      The evidence provided by EmblemHealth in response to the draft audit report indicates that
      the Plan has modified its e-mail encryption software to protect PII; no further action is
      required.

C. Configuration Management
  EmblemHealth uses three claims adjudication applications: the GHI professional claims
  processing system (MCS), the GHI facility claims processing system (HCS), and the GHI HMO
  and HIP HMO claims processing system (QCare). We evaluated EmblemHealth’s controls to
  securely configure the mainframe, databases, and servers that support these applications. We
  determined that the following controls are in place:
  •   Controls for securely managing changes to the operating platform and claims processing
      application;
  •   Controls for monitoring privileged user activity on the operating platform; and,
  •   Documented patch management procedures.

  The sections below document areas for improvement related to EmblemHealth’s configuration
  management controls.

  1. Mainframe System Configuration
      EmblemHealth has a documented Mainframe Security Standard that outlines the approved
      configuration of its mainframe security software. However, our review of EmblemHealth’s
      actual mainframe configuration identified several insecure settings. Although no settings
      directly violated the Security Standard, we believe that the policy is not comprehensive
      enough because it does not provide guidance on the specific settings in question. The
      problems that were detected were detailed in the draft report, but due to the sensitive nature
      of these findings, the specific settings in question will not be included in this report.

      NIST SP 800-53 Revision 3 requires that the “organization develops, documents, and
      maintains under configuration control, a current baseline configuration of the information
      system.” The guidance also recommends that the organization review and update the
      baseline configuration at an organization-defined frequency, when required to under
      organization-defined circumstances, and as an integral part of the information system
      component installations and upgrades.

      Failure to have appropriate security configurations based on common security practices
      increases the likelihood an attacker can gain access to sensitive data on the mainframe.


                                                   6
   Recommendation 3
   We recommend that EmblemHealth make the appropriate configuration changes related to
   the specific weaknesses identified during this audit.

   EmblemHealth Response:
   “We have implemented four of the recommended configuration changes and will
   implement an additional two on September 15, 2012. . . .”

   OIG Reply:
   The evidence provided by EmblemHealth in response to the draft audit report indicates that
   the Plan has appropriately implemented several of the configuration changes we
   recommended.

   However, several configuration changes still need to be implemented to fully address this
   recommendation. The details of the remaining weaknesses have been provided to
   EmblemHealth and OPM’s HIO. We recommend that EmblemHealth update HIO on its
   progress to implement the remaining configuration settings.

   Recommendation 4
   We recommend that EmblemHealth update its Mainframe Security Standard to contain a
   detailed secure mainframe baseline configuration.

   EmblemHealth Response:
   “We updated the Mainframe Security Standard to include our approved baseline
   configuration.”

   OIG Reply:
   The evidence provided by EmblemHealth in response to the draft audit report indicates that
   the Plan has appropriately updated its Mainframe Security Standard to include its baseline
   configuration; no further action is required.

2. Server and Database Configuration
   EmblemHealth uses a third party vendor to periodically conduct vulnerability scans on its
   information systems. As part of this audit, we conducted our own automated vulnerability
   scans on a sample of EmblemHealth’s systems (including 20 production servers and two
   databases) to identify security vulnerabilities. Our scans detected a variety of insecure
   configurations in EmblemHealth’s environment. The list below outlines a high level
   description of the problems that were detected, but due to the sensitive nature of these
   findings, the details will not be included in this report. We determined that several servers
   and/or databases:
   •   Did not have critical patches, service packs, and hot fixes implemented in a timely
       manner;
   •   Are running operating systems and/or software that is no longer supported by the vendor;
                                                7
•   Do not have up-to-date antivirus software and/or virus definitions;
•   Are running third party applications that were not appropriately updated or patched; and,
•   Have password settings that are not in compliance with EmblemHealth’s corporate
    password policy.

FISCAM states that “Software should be scanned and updated frequently to guard against
known vulnerabilities.” NIST SP 800-53 Revision 3 states “The organization (including any
contractor to the organization) promptly installs security-relevant software updates (e.g.,
patches, service packs, and hot fixes). Flaws discovered during security assessments,
continuous monitoring, incident response activities, or information system error handling, are
also addressed expeditiously.” In addition, NIST SP 800-53 Revision 3 states that “The
organization configures the information system to provide only essential capabilities. . . .”
An organization should also review the information system to identify and eliminate
unnecessary functions.

Failure to promptly install important updates, implement least functionality to an information
system, and implement appropriate authentication controls can increase the amount of
exposed vulnerabilities and methods an intruder can use to gain unauthorized access to the
system.

Recommendation 5
We recommend that EmblemHealth implement proper procedures and controls to ensure that
production servers are installed with appropriate patches, service packs, and hotfixes on a
timely basis.

EmblemHealth Response:
“We analyzed the server problems and determined that the tool we were using, Ecora, was
not working as intended; we replaced this tool with ITCM and will monitor its
effectiveness as we roll it out to the rest of the servers and databases. We have applied all
of the fixes to the servers.”

OIG Reply:
The evidence provided by EmblemHealth in response to the draft audit report indicates that
the Plan has appropriately patched the production servers; no further action is required.

Recommendation 6
We recommend that EmblemHealth implement appropriate procedures and controls to ensure
that only current and supported versions of system software are installed on the production
servers.

EmblemHealth Response:
“Several of our legacy in-house-developed applications are dependent on an older
operating system. We are looking at new architecture to replace them. In the meantime,


                                            8
we cannot upgrade the operating systems to supported versions because of the adverse
impact that would have on our customers and our business.”

OIG Reply:
As part of the audit resolution process, we recommend that EmblemHealth update OPM’s
HIO on its progress to implement new architecture and to ensure that only current and
supported versions of system software are installed on the production servers.

Recommendation 7
We recommend that EmblemHealth implement appropriate procedures and controls to ensure
that anti-virus software definitions are up-to-date on all production servers.

EmblemHealth Response:
“Information Security is now reviewing Anti-virus signatures on all servers via the EPO
console on a daily basis. This task was added to the Daily Checklist.”

OIG Reply:
The evidence provided by EmblemHealth in response to the draft audit report indicates that
the Plan has updated its procedures to ensure anti-virus definitions are current on all
production servers; no further action is required.

Recommendation 8
We recommend that EmblemHealth review its current system configurations to ensure that
only necessary software is installed on the production servers.

EmblemHealth Response:
“We have reviewed the Nessus reports and are in the process of identifying and removing
unnecessary software. Going forward, we have a standard build for new servers to ensure
that unnecessary software is not installed, and we will perform periodic reviews to ensure
that we are at either emerging or current status for our operating systems.”

OIG Reply:
As part of the audit resolution process, we recommend that EmblemHealth update OPM’s
HIO on its progress to identify and remove unnecessary software. EmblemHealth should
also provide HIO with evidence of the first annual review.

Recommendation 9
We recommend that EmblemHealth implement appropriate controls to ensure that user
accounts on system databases comply with corporate password policies.

EmblemHealth Response:
“Passwords on the database are now in compliance with EmblemHealth's Password
Standard.”
                                        9
      OIG Reply:
      The evidence provided by EmblemHealth in response to the draft audit report indicates that
      the Plan has appropriately changed its database settings to match their corporate password
      policy; no further action is required.

D. Contingency Planning
  We reviewed the following elements of EmblemHealth’s contingency planning program to
  determine whether controls were in place to prevent or minimize interruptions to business
  operations when disastrous events occur:
  •   Disaster response plan;
  •   Business continuity plan for data center operations;
  •   Business continuity plans for legacy GHI claims processing operations and claims support;
  •   Disaster recovery plan tests conducted in conjunction with the recovery site; and,
  •   Emergency response procedures and training.

  We determined that the service continuity documentation contained the critical elements
  suggested by NIST SP 800-34, “Contingency Planning Guide for Information Technology
  Systems.” EmblemHealth has identified and prioritized the systems and resources that are
  critical to business operations, and has developed detailed procedures to recover those systems
  and resources.

  Nothing came to our attention to indicate that EmblemHealth has not implemented adequate
  controls related to contingency planning.

E. Claims Adjudication
  The following sections detail our review of the applications and business processes supporting
  EmblemHealth’s claims adjudication process.

  1. Application Configuration Management
      We evaluated the policies and procedures governing software development and change
      control of EmblemHealth’s claims processing applications.

      EmblemHealth has policies and procedures related to application configuration management.
      EmblemHealth has adopted a thorough system development life cycle methodology that IT
      personnel follow during routine software modifications. We observed the following controls
      related to testing and approvals of software modifications:
      •   EmblemHealth has adopted practices that allow modifications to be tracked throughout
          the change process;
      •   Code, unit, system, and quality testing are all conducted in accordance with industry
          standards; and,
      •   EmblemHealth uses a separate business unit to move the code between development and
          production to ensure adequate segregation of duties.


                                                 10
   However, the configuration management process relies heavily on manual effort and could
   be improved with the implementation of automated tools. EmblemHealth has explored the
   option of implementing a change management tool and is considering a second pilot. The
   tool would force all steps in the change management process to occur in order with all
   required documentation and approvals in place before moving code into production. An
   automated tool would reduce the risk of human error and the movement of code without
   approved and complete change packages.

   Recommendation 10
   We recommend that EmblemHealth install and implement an automated tool to facilitate the
   application configuration management process.

   EmblemHealth Response:
   “We are in the process of customizing [redacted] for EmblemHealth’s environment for
   implementation in 2013. In the meantime, we have implemented an additional tool to
   replace part of our existing mainframe implementation process and continue to be very
   diligent about our manual procedures.”

   OIG Reply:
   As part of the audit resolution process, we recommend that EmblemHealth update OPM’s
   HIO on its progress to implement a change management tool.

2. Claims Processing System
   We evaluated the input, processing, and output controls associated with EmblemHealth’s
   claims adjudication systems. We determined that EmblemHealth has implemented policies
   and procedures to help ensure that:

   •   Claims scheduled for payment are actually paid;
   •   Claims are monitored as they are processed through the systems with real time tracking
       of the system’s performance; and,
   •   Paper claims that are received in the mail room are tracked to ensure timely processing
       (aging reports).

   We do not have any concerns regarding EmblemHealth’s claims processing policies and
   procedures.

3. Enrollment
   We evaluated EmblemHealth’s procedures for managing its database of member enrollment
   data. Changes to member enrollment information are primarily received via an encrypted
   electronic transmission. Changes to enrollment are predominately automated. Exceptions
   that require manual processing are identified during an overnight batch process that generates
   a report of manual enrollment changes. These updates are then manually entered into the
   enrollment system. EmblemHealth has an audit function for each step of the enrollment
   process that requires manual data manipulation.

                                              11
  We do not have any concerns regarding EmblemHealth’s enrollment policies and procedures.

4. Debarment
  EmblemHealth has adequate procedures for updating its claim system with debarred provider
  information, and the Plan routinely audits its debarment database for accuracy.

  EmblemHealth downloads the OPM OIG debarment list every month and compares it to its
  provider maintenance file. Any debarred providers that appear in EmblemHealth’s provider
  master database are flagged to prevent claims submitted by that provider from processing
  successfully during the claims adjudication process.

  However, EmblemHealth’s debarment procedures do not comply with OPM’s “Guidelines
  for Implementation of FEHBP Debarment and Suspension Orders.” EmblemHealth’s claim
  payment guidelines state that “All claims will be denied the first day following the date of the
  debarment/mandatory termination.” OPM’s Guidelines for Implementation of FEHBP
  Debarment and Suspension Orders state that claims should be paid during a 15 day “grace
  period” after members have been notified that a doctor has been debarred.

  Recommendation 11
  We recommend that EmblemHealth make the appropriate changes to its debarment policies
  and procedures to comply with OPM’s Guidelines for Implementation of Federal Employees
  Health Benefits Program Debarment and Suspension Orders.

  Recommendation 12
  We recommend that EmblemHealth make the appropriate changes to their claims processing
  systems to ensure FEHBP claims are processed in accordance with OPM’s Guidelines for
  Implementation of Federal Employees Health Benefits Program Debarment and Suspension
  Orders.

  EmblemHealth Response:
  “We are in agreement with both recommendations. Based on these recommendations
  EmblemHealth has taken the opportunity to reinforce the policies and procedures followed
  in support of the Guidelines.

  All of the necessary and appropriate protocols specified in the FEHB contract are now in
  place. These important functions have been reviewed in detail to make sure all of the
  specific responsibilities are appropriately applied to all FEHBP claims. Comprehensive
  policies and procedures have been implemented to provide a seamless member transition
  from debarment of health care providers by OPM.”

  OIG Reply:
  The evidence provided by EmblemHealth in response to the draft audit report indicates that
  the Plan has appropriately updated its policies and procedures and made the system


                                              12
     modification to ensure compliance with OPM guidelines; no further action is required for
     either recommendation 11 or 12.

  5. Special Investigations and Fraud
     The OIG evaluated the EmblemHealth policies and procedures governing special
     investigations and fraud. We determined that EmblemHealth has substantial policies and
     procedures in place to detect, manage, and report fraud.

     There were no areas of improvement noted during our review.

  6. Application Controls Testing
     We conducted a test on EmblemHealth’s claims adjudication applications to validate the
     systems’ claims processing controls. The exercise involved processing test claims designed
     with inherent flaws and evaluating the manner in which EmblemHealth’s systems
     adjudicated the claims. Test claims were submitted for MCS, HCS, and QCare.

     Our test results indicate that all three systems have controls and system edits in place to
     identify the following scenarios:
     •   Gender/Procedure inconsistencies;
     •   Provider/Procedure inconsistencies;
     •   Timely filing;
     •   Enrollment inconsistencies;
     •   Invalid date of service;
     •   Overlapping hospital stays; and,
     •   Duplicate and near duplicate claims.

F. Health Insurance Portability and Accountability Act
  We reviewed EmblemHealth’s efforts to maintain compliance with the security and privacy
  standards of HIPAA.

  EmblemHealth has implemented a series of IT security policies and procedures to adequately
  address the requirements of the HIPAA security rule. EmblemHealth has also developed a series
  of privacy policies and procedures that address all requirements of the HIPAA privacy rule.
  EmblemHealth uses HIPAA regulations as the baseline for the creation of its policies. The plan
  has designated a Privacy Official who is responsible for ensuring EmblemHealth’s compliance
  with HIPAA Privacy and Security regulations. EmblemHealth employees receive annual
  compliance training that encompasses HIPAA regulations.

  We do not have any concerns regarding EmblemHealth’s compliance with the various
  requirements of HIPAA regulations.




                                                  13
                    III. Major Contributors to This Report

This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:
•                   Group Chief
•                    , Senior Team Leader
•                 Auditor-In-Charge
•                       , IT Auditor
•                  , IT Auditor




                                              14
Recommendation #1

We recommend that EmblemHealth reassess its data centers’ physical access management and
implement controls that will improve physical security. At a minimum, EmblemHealth should
implement multi-factor authentication (e.g., cipher lock or biometric device in addition to an
access card) at data center entrances.
Response #1
Dual input card readers, that require both an access card and a PIN, were installed for each
entrance to the data center on September 12, 2012.

Recommendation #2
We recommend that EmblemHealth review its configuration settings for e-mail encryption to
ensure that all PII is appropriately protected.
Response #2
We have implemented the SSN lexicon for ZixSelect, the tool that we use to automatically
encrypt e-mail containing PHI. A single SSN will force the encryption. We acknowledge the
importance of the SSN as a key element of the e-mail and that it is PII vs. PHI. We cannot move
beyond that to encrypt mailing address, zip codes and/or state names because doing so would
cause all e-mails with address information in the signature section to be encrypted.

Recommendation #3
We recommend EmblemHealth make the appropriate configuration changes related to the
specific weaknesses identified during this audit.
Response #3
We have implemented four of the recommended configuration changes and will implement an
additional two on September 15, 2012.




       **** REDACTED BY OPM/OIG DUE TO THE SENSITIVE NATURE OF THE
                            INFORMATION****




Recommendation #4
We recommend that EmblemHealth update its Mainframe Security Standard to contain a detailed
secure RACF baseline configuration.
Response #4
We updated the Mainframe Security Standard to include our approved baseline configuration.

Recommendation #5
We recommend EmblemHealth implement appropriate procedures and controls to ensure that
production servers are installed with appropriate patches, service packs, and hotfixes on a timely
basis.
Response #5
We analyzed the server problems and determined that the tool we were using, Ecora, was not
working as intended; we replaced this tool with ITCM and will monitor its effectiveness as we
roll it out to the rest of the servers and databases. We have applied all of the fixes to the servers.

Recommendation #6
We recommend EmblemHealth implement appropriate procedures and controls to ensure that
only current and supported versions of system software are installed on the production servers.
Response #6
Several of our legacy in-house-developed applications are dependent on an older operating
system. We are looking at new architecture to replace them. In the meantime, we cannot
upgrade the operating systems to supported versions because of the adverse impact that would
have on our customers and our business.

Recommendation #7
We recommend EmblemHealth implement appropriate procedures and controls to ensure that
anti-virus software definitions are up-to-date on all production servers.
Response #7
Information Security is now reviewing Anti-virus signatures on all servers via the EPO console
on a daily basis. This task was added to the Daily Checklist.

Recommendation #8
We recommend EmblemHealth review their current system configurations to ensure that only
necessary software is installed on the production servers.
Response #8
We have reviewed the Nessus reports and are in the process of identifying and removing
unnecessary software. Going forward, we have a standard build for new servers to ensure that
unnecessary software is not installed, and we will perform periodic reviews to ensure that we are
at either emerging or current status for our operating systems.

Recommendation #9
We recommend EmblemHealth implement appropriate controls to ensure that user accounts on
system databases comply with corporate password policies.
Response #9
We plan to implement Oracle’s OVD solution for the provider database. This will provide
single-sign-on functionality for the application users, and Active Directory will enforce
compliance with corporate password policies. For the DBA accounts that cannot function
properly without direct access, we will use Oracle’s native 10.g password options to enforce
compliance with corporate password policies.

**10/12/12 Updated Response**
Passwords on the database are now in compliance with EmblemHealth's Password Standard.

Recommendation #10
We recommend EmblemHealth install and implement an automated tool to facilitate the
application configuration management process.
Response #10
We are in the process of customizing [REDACTED] for EmblemHealth’s environment for
implementation in 2013. In the meantime, we have implemented an additional tool to replace
part of our existing mainframe implementation process and continue to be very diligent about our
manual procedures.

Recommendation #11
We recommend that EmblemHealth make the appropriate changes to its debarment policies
and procedures to comply with all OPM’s Guidelines for Implementation of Federal
Employees Health Benefits Program Debarment and Suspension Orders.
Recommendation #12
We recommend that EmblemHealth make the appropriate changes to their claims processing
systems to ensure FEHBP claims are processed in accordance with OPM’s Guidelines for
Implementation of Federal Employees Health Benefits Program Debarment and Suspension
Orders.
Response #11 and #12:
We are in agreement with both recommendations. Based on these recommendations
EmblemHealth has taken the opportunity to reinforce the policies and procedures followed in
support of the Guidelines.

All of the necessary and appropriate protocols specified in the FEHB contract are now in place.
These important functions have been reviewed in detail to make sure all of the specific
responsibilities are appropriately applied to all FEHBP claims. Comprehensive policies and
procedures have been implemented to provide a seamless member transition from debarment of
health care providers by OPM.

Expanded Protocols
The review resulted in expanded policies and procedures that more effectively support the
specific carrier responsibilities outlined in the Guidelines. These expanded protocols reinforce
our obligations and have been successfully implemented. Also, the involved staff has been fully
trained on the newly expanded policies and procedures and the existing protocols have been
reinforced. Policies and procedures that have been implemented, reinforced and expanded for all
FEHBP claims include the following:
    • Securing the monthly OIG Debarment and Suspension lists.

   •   Identifying providers located in the Emblem Health FEHBP service area.
   •   Requesting any necessary information missing from the OIG listings so that authoritative
       matches can be made.

   •   Match all FEHBP claims of medical service and items against the continuously updated
       OIG Debarment and Suspension list database. The FEHBP claims are automatically
       matched against the database. Upon a match, one of three situation-appropriate notices
       containing the required information is promptly issued to enrollees who receive services
       from Debarred and Suspended providers. The following steps are also taken:

           − Apply a 15-day grace period following the issuance of the notice and continue to
             pay items and services provided during this time. A 30-grace period is applied to
             facility claims if the member was not properly notified of debarment before the
             service occurred.

           − Payments are not made for items or services rendered more than 15 days after the
             date of the notice to the enrollee.

           − Exceptions that are sanctioned, approved or requested by OPM will be handled as
             instructed.

           − Deny further payments of claims after the date of debarment and suspension and
             applicable grace periods.

           − All information on the debarred and suspended providers, matched claims, issued
             notices and related matters is available in corporate repositories accessible to
             Customer Service representative to respond to any inquiries from providers,
             FEHBP members and other involved parties.

   •   FEHBP Claims are rejected if the claims for items or services are furnished more than 15
       days after the date of enrollee notice unless the enrollee can demonstrate that they had not
       received the notice when the items/services were furnished or Emblem Health knows that
       the enrollee was specifically aware/notified of the provider’s debarment or suspension.

   •   Reports will continue to be issued to OIG in the prescribed format and schedule.

EmblemHealth recognizes the importance of following the Debarment and Suspension Orders
Guidelines and we continue our commitment to effectively administer all of the related activities.
